MEMORANDUM

Date:              November 16,1999     ,




To:         ,      File #I98060012

From:

Via:
           II
Re:

Background:

In March ,:1998,a special a ent from EPA OIG contacted our office to obtain our assistance in an
ongoing investigationa o*                      V     m    e       d us that
provides consulting services primm y to agencles o e united states government, was 1 Ing its
government clients for subcontractor costs which        not yet incurred, a violation of the
Federal Acquisition Regulations. He also told us t at m a d previously been directed to
discontinue this practice and failed to do so.             I'



Investigation::.

We worked with SA                d the Department of Justice, primarily providing information on
the NSF contracts                         In June 1999 we were informed that Abt had agreed to
settle wiih the                              We worked k t h    SAW           coordinate agency
review and approval of the settlement agreement.



In septehber 1999                            to settle with the United States government for $1.9
million. As part of                       Iso entered into a Compliance Agreement with the
Environmental                                      States its governmental clients agreed not to
institute any civil or administrative action a g a i n s t connection with its billing of
subcontractor charges it had not yet paid from the periodf?lanuary1, 1988 through the effective
date of &e agreement. The agreement was executed on dctober 20, 1999.

This case is closed
                                                        U.S. Department of Justice


                                                        Unitedstates Attorney
                                                        District of Masachuse its


                                                        United States Courthouse, Suite 9200
                                                        1 Courthouse Way                 -   -
                                                        Boston. Massachusetts 02210
                                                        Direct Line: 61 7/748-3139
                                                        Fax: 61 7/748-3992
                                                        0ctober 27, 1999

                                         PRESS RELEASE

                         ABT-ASSOCIATES,INC. OF CAMBRIDGE .
                                 PAYS $1.9 MILLION
                        TO SETTLE FALSE CLAIMS ALLEGATIONS '

       Boston, MA... A Cambridge consulting firm has paid $1.9 million to settle civil charges
brought by the federal government under the False Claims 4ct.

       United States Attorney for the District of Massachusetts, Donald K. Stem and Walter C.
Holton, United States Attorney for the Middle District of North Carolina, today announced that
ABT ASSOCIATES, INC. ("ABT'), a consulting firm based in Cambridge, Massachusetts, has
paid $1.9 'hillion to the United States to settle civil claims arising under the federal False Claims
Act.

        ABT is a consulting firm which is engaged in the business of providing a wide array of
consulting services to its clients, primarily agencies of the United States government. It relies
heavily on the services of subcontractors. The Federal ~ c ~ b i s i t i oRegulations
                                                                           n          ("FAR") prohibit
government contractors like ABT from billing the government for its subcontractor costs until it
has already paid those costs.

        The United States alleges that from 1988 until early 1998, ABT was billing as many as
fifteen different government agency clients for subcontractbr costs which ABT had not yet
incurred. The government clients included the Environmental Protection Agency, the Department
of Health and Human Services, the Department of Justice, the Executive Office of the President
and the National Science Foundation. In fact, an audit by the Defense Contract Audit Agency
reflected {hat during this peribd, ABT may have billed the government prematurely nearly 74% of
the time, by an average period of 37 days. This conduct, the United.States alleges, deprived the
government of the use of finds which it prematurely paid to ABT.

        The United States fbrther alleges that, during this time period, ABT accounting personnel
knew whit the FAR required,lbut nonetheless failed to corhply with it. The United States also
alleges that one of ABT's got;ernmental clients, the Environmental Protection Agency, warned

                                                                  r-_T
J
t   ABT orally and in writing on three occasions about its cohuct, but ABT failed to remedy the
    problem.                      -
             ABT hired new accounting staff in 1998, and when they learned of the problem, they
    made significant changes in accounting procedures to ensuFe that the conduct did not reoccur. In
    addition, as part of its settlemknt with the United States, ABT has executed a Compliance
    ~ ~ r e e m kwhich
                 n t requires ABT, among other things, to rktain an independent entity to review
    ABT's compliance with the FAR on an annual basis, to train its employees on government
    contract compliance, and to maintain a helplinelhotline for ABT employees who seek guidance on
    government contracting issues or who wish to report improper government contracting practices.
    ABT has also hired a Government Accounting and Compliance Manager to oversee its
    government contract compliance.                             1




           ABT cooperated with the government throughout the investigation.

            U.S. Attorney Stern commented: "For a ten year period ABT knowingly billed its           ...
    government   clients before it was entitled to do so, and thus improperly obtained the use of
            11
    government funds prematurel$, in violation of the goverdnent requirement. This simple but            .   .

    important rule is intended to save the taxpayers money and insure that government contractors are
    not getting a windfall. We aretgratified that the company has corrected this problem and taken
    steps to ensure that it does not reoccur."

i            U.S. Attorney Holton &om the Middle District of [NorthCarolina added: "This
    investigation demonstrates the importance of cooperation among law enforcement agencies. The
    initial problem was discovered in billings to the EPA in the Research Triangle Park, North
    Carolina. Rather than simply addressing the EPA issue, the federal investigators looked into
    whether the billing practice affected other federal agencies and determined that this billing practice
    was widespread and involved:billingsto fifteen other federal agencies."

            The case investigation was led by the U.S. Environmental Protection Agency's Office of
    the Inspector General. The Boston Branch Office of the Defense Contract Audit Agency audited
    the damages suffered by the government. The case was handled by Assistant U.S. Attorney David
    S. Mackey, Chief of Stern's Civil Division, Assistant U.S. Attorney Gill Beck from the Middle
    Distri~tl~of
              North Carolina, anb. Trial Attorney Maya Gueya of the Department of Justice. The
    Compliance Agreement was negotiated by Kimberly Patrick, Esq., Debarment Counsel for the
    Environmental Protection Agency.

    Press Contact: Samantha Martin. (617) 748-3 139, U.S. Attorney's Ofice, District of MA
                U.S.Department of Housing and Urban Development
                          Office of Inspector G     fl



                    Dan T. Stanford
                     Special Agent
     of Investigation
Office                               (617) 565-5293
10 Causeway Street, Suite 360        fax: (617) 565-6916
Boston, MA 02222- 1092               Dan-T.-Stanford @ hud.gov
                                        Settlement ~ g r e e r n k; t

           This Settlement A@ement is made and entered &to on October 20, 1999 (ths
                                  -
    "Effk$ve Daten) by and between the United States of America represented by the

    Depamnent of Justice, the United Srates Attorney's Otfice for the District of

                                                                                       . . ....-
    Massachusetts, and the United S t d t g Attorneys Office for the Middle DicZict of North

    Carolina (chlectively "the United Statesn), the Environmental Protection Agency, the

    Ag&q for Intemationd Development, the Depamnent of Health and Human Services,

    the Dep-ent      of Justisciy the Depamnent of Housing ahd Urban develop
                                                                       . .   men^
                                                                               .. the   -.   .     . .-   -
    Department of Agriculture, the Department of Labor, the National Science Foundation,

    the Department of Education, the Social Security Admin@ation,-the Executive Office of

    the President, the Department of Commerce, the General Accounting Office, the Medicare
(   Payment Advisory Commission, the Federal Trade Commission, the National Endowment

    for the Arts, and the Consumer Product Safety Commission (collectively, "the

    Governmental Clients"), and Abt Associates Inc. ("Abt Associates"), a Massachusetts

    Corporation with a principal place of business in Cambridge, Massachusetts.

           WHERXAS, Abt Associates is a consulting fum which is engaged in the business of

    providing a wide array of consulting services to its diend, primarily agencies of the United

    Sates government; and

           WHELREAS, Abt Associates' contracts with its Gqvernmental Clients are governed

    by the Federal Aquisition Regulation (the TAR."). FAR Section 52.216.7, also known

    as the (LAllowableCost and Payment Clause," is incorporated into some of Abt Associates'
                                                                    I

(
7
    -       - -    - - .. ..
#
        ..
                                                 J
                  contracts with its Govefnmental Clients. IheUnited states contends that the Allowable

                  Cost and Payment Clause provides that a contractor may not bill the Government for
    /                                                                       <   -
    a
                                            - contractor has paid those!chargcr; and
                  subconaamr charges until the
                                                     I


                        '   WHEWAS, the United Sates alleges thaq for th; period from 1988 until early

                  1998 Abt Associates was billing its Governmental Clients in some cases for subcontractor

                  and consultant charges which Abt Associates had not yet,paid. The United-States does not
                                  I1                                            ,
                  alle@-that the subcontractor or consultant charges for which Abt Associates billed its

                  Governmental clients wcre themselva improper, but instead that they were prematurely

                  billed. I n particular, an au&t by the Defense Contract Audit Agency .("DCAA?)-

                  determined that, for the period from 1988 until early 1998, Abt Associates prematurely

                  billed its Governmental Clients' 74% of the time, by an average period of 37 days, thereby

                  depriving its Governmental Clients of the use of h d s which they prematurely paid to Abt
        i    1


                  Associates. The Government determined that the Goverflment suffered losses in the form

                  of imputed interest-for that time period, based on the Government's allegations; and

                               WHEREAS, the United States alleges thq during all relevant times, Abt Associates

                  knew that the Allowable Cost and Payment Clause prohibited Abt Associates from billing

                  its Governmental Clients for subcontractor charges unti1,afterAbt Associates had paid

                  them; and

                               -AS,         the United States alleges that, the Environmental Protection Agency ("%,PAn)   ,




                  warned Abt Associates, in writing and orally, that its billing practices violated the
         Allowable Cost and Payment Clause. EPA ultimately referred the matter to its Ofice of
                                                                       d   -
         Inspector General in November, 1996; and

                   WHEREAS, the unit& States alleges that Abt Associates persis'ted in its violations

         of the AUqwable Cost and Payment Clause until F e b r u 4 1998. At that time, a new
                                                                           I



                                                                           - - Abt Associates
         fmancial management team at Abt Associates notikd the Govunment, and
                                                                                               .   .

         has represented that it has corrected the problem; and -
             -._
               - WHEREAS, Abt Associates has represented that it has taken steps to ensure that the

         practice at issue never occurs again, including completely overhauling its accounting
                                                                                . .       . . -.        . ..   -
         depactmen,tand instituting new billing and payment propiwe.; and          .                               . -.
                   WHEREAS, based on these events, the United States alleges that Abt Associates is subject

         to liability under the False Claims Act, 31U.S.C.5 3729 et seq., and under the common

i    ;   law, for up to three times the amount of the damages caused by Abt Associates conduct;

         plus civil penalties, investigative costs and interest; and

                   WHER-EAS, Abt Associates denies the allegatiomj~fthe United States, and denies
                       I1

         that it has violated the False Claims Act, the Allowable Cost and Payment Clause, or any

         other provision of law; and

                   WHERBAS, there has been no judiaal finding or adjudication against Abt

         Assodates with respect to the allegations of the United States; and

                   -AS,         EPA and Abt Assodates have entered into a Compliance Agreement which

         requires Abt Associates to take certain steps to ensure compliance with its government

         contrans; and
I'   :
                  WHEREAS, the United States and Abt Associates desire to reach a full and final setdement
                                                             #.
1           and compromise of all potential claims and causes of action and finher wish to avoid the
                                         -
            expense, delay and inconvenience of protracted liagatioril

                   A~CORDINGLY,
                             in consideration of the mutual promises, covenants and
                                                                                     -   .-.
            obligations set forth in this Settlement &mxnent and the resolution of &pending cl-aims

            and differences, and for good and valuable consideration, the receipt and adequacy of which

            is h&eby acknowledged, the parties agree as follows:      .   .

                   1.     Not later than five calendar days &er the execution of this Settlement              -


            Agreemeng Abt Associates will pay the United States, inifdl satisfaction and accord, the

            sum of $1,900,000.Such payment shall be made by wire transfer; pursuant to instructions

            From the United States.
    (   1
                   2.     In consideration for the fidl and timely payment of the sum agreed upon in

            paragraph 1of this Settlement Agreement, and except as provided in paragraphs 4 and 5 of

            this Settlement Agreemen\ the United States and the G o ' m e n t a l Clients hereby waive,

            release, discharge, and promise to refrain from instituting or maintaining any civil claim,

            action, demand, suit or proceeding against Abt Associates, its current and former affiiates,

            subsidiaries, divisions, or subdivisions, i~ successors and assigns and all of their respective

            current and fonner officers, directors, employees, agents or representatives, concerning any

            and all v
                    and
                      s,claims, causes of action, suits, liabilities,[oso, damages and expenses, that

            the United States or the Governmental Clients have or may have under common law, the

            False Claims Act, 31 U.S.C. §§ 3729, et seq., the Program Fraud Civil Remedies Act, 31
        U.S.C. § 3801, et seq., the Contract Disputes Act, 41'u.s.c.     1 601 et seq., or any other
,
        statute creating causes of acdon for civil damages or penalties, for Abt Associates' billing of

        its Governmental clients for subcontractor or consultahfrchargeswhich Abe Associates had
                                                                    I

                                                                   '1


        not yet p4d for during the period January 1, 1988 through the Effective Date of this

        Agreement, or for the costs of investigating these claims.

               3.    '   In W e r consideration for the Full and timely payment of the sum agreed

        upoii'in pqagraph 1,the United States and the GoverIuiental Clients hereby release and

        discharge Abt Associates, its current and former affiliates, subsidiaries, divisions, or          . .."..



        subdivisions, its successors and assigns and all of their r&pecdve current and former
                                                                                                                    I
        officers,directors, employees, agents or representatives, from any-administrativesanctions

        for the conduct described in the Settlement Ageernen\ including but not limited to
    1
        suspension and debarment.

               4.        Notwithstanding the provisions of paragraph 2, the United States does not

        release A6,t Associates fiom claims, if any, arising underlTitle 26, U.S. Code (Internal

        Revenue Code).

                5.       Notwithstanding the provisions of paragraph 2, the United States and the

        Governmental Clients do not release Abt Associates fiom claims, if any, based upon the

        delivery of deficient or defective consulting services, based upon express or implied

        warranti4 pemhhg to consulting services, or based uppn failure to deliver consulting

        services.
               6.     Nothing in this Settlement Agreement sh,$ or shall be deemed to, toll,

4       suspend, extend or stay the running of any or all statut& b f limitations applicable to the
                                      -
        disputes and claiiiw that are the subject of paragraphs 4-5;

               7.     I c is agreed that all costs (as defined in the Federal Acquisition Regulations ("FAR")

        3 1.205-47) incurred by or on behalf of Abt Associates and its officers, dqqztors, agents
                                                                                            ..



        and employees in connection with (1)the issues covered by this Settlement Agreement, (2)

        the governmenfs audit and investigation of the matters &vered by this Settlement

        Agreement, (3) Abt Associates' investigation, defense ofdthematters, and corrective
                                                                                      . .              . -"

        actions, (4) the negotiation of this Settlement Agreement, and (5) the payment made to

        the U n i t 4 States s h d be unallowable costs for govemmpt contract accounting purposes

        to the extent required by FAR 31.205-47. These amounts shall be separately accounted for

    -   by cost repom, cost statements or information repom.

               8.      This Agreement is made in compromise of disputed claims. N e i k the Agreemen<

        its execution or performance of any obligation under it, including payment of damages,

        nor the fa& of the settlemen5 is intended to be, or shall be understood   A,an
        acknowledgement of responsibility, admission of liability or wrongdoing, or other

        expression1reflecting upon the merits of the claims. hy;
                                                               such responsibility, liability or

        wrongdoing is expressly denied by Abt Associates.

               9.      Each party to this Settlement Agreement r,epresentsthat it has the fidl power

        and authority (without hther approvals and consent) to enter into this Settlement
Agreement and to perform the obligations hereunder,.axid that this Settlement Agreement

is being executed on its behalf by a person who is fully authorized to do so.
                             -
       10.    This Settlement Agreement constitutes the entire agreement of the United

States, the Governmental CLients, and Abt Associates with respect to the subject matter of

this Settlement Agreement and may not be modified, amended or termmated except by a

written a g r k e n t signed by the parties specifically referring to this Settlement Agreement.

       IN WTINESS WHEREOF, the parties, through their duly authorkd representatives,

hereunto set their hands.                                              . .        .. .             . .-   ..



ABT MSOCIATES INC.                                 DONALD K. STERN
        h




BY-    WX.G                                         United States Attorney


Its: dm P           44      cyf-         ?&-            >A        v
                                                    David S. Mackey
                                                    Civil Ghief
                                                           1

                                                   WAL'IER C. HOLTON
                                                   United States Attorney
                                                   Middle District of N. Carolina
             I1

       Civil Chief

       WALTER C. HOLTON
 ,     United States Attorney
       Middle District of N. Carolina
                      I




       Gill Beck
       Assistant U.S. Attorney

       DAVID W. O G D E N ' '              -




       c
       Acting Assistant Attorney General


       Micha I F. Hertz
       stephen D. Altrnan
       Maya S. Guerra . .          . .
       Attorneys for the United States
       Civil Division
       Department of Justice



       ENVIRONMENTAL PROTECTION
       AGENCY

By:

Its:


       AGENCY FOR INTERNATIONAL
       DEVELOPMENT
By:



       DEPT.'iOF HEALTH AND HUMAN
       SERVICES

By:

Its:              I




       DEPT. OF HOUSING AND
      DAVID W.O G m
      Acting Assistant Ammey Generd

      Mfchacl P.Hcra
      S t e p b D.Alanan
      MayaiS. Guefra

      ~ioil~iviian
                              -
      Attorneys for tire U n i-d--
                                 State

      D ~ ~ & L O ~ J Uace
                                  --          .   -
      ENVIRONMENTAL PROTECITON
      AWCY

By;
      F C ~ ~ ~ G - I W I L ( C ~ P A L - E P W
Ia:   L c - E - :(&
                  O C~
                     ) ~~
                        ~S--
                                                      I   .




                                                              .   .
      AGENCY FOR INTERNATIONAL,
      DEX~OPMENT
BF



      . D m OF
            . HEALTH AND EW&W
       SERVICES

By:         I.




      DEW.. OF HOUSING AND
      URBAN DEvELOPMENT
       DAVID W. OGDEN
       Acting-Assis tant Attorney General


       MichaeIF. Hertz
       Stephen D. Altman
       Maya S. Guerra
       Attorneys for the United- - -.States
       Civil Division              --         .-
       ~ e ~ a r d n eof
                      n tJustice

       ENVIRONMENTAL PROTEcrION
       AGENCY

By:

Its:


       AGENCY FOR INTERNATIONAL

By:

Its:

       DEPT.1 OF HEAL% AND HUMAN
       SER~~CES

By:

1ts:

       DEPT.OF HOUSING AND
       URBAN DEVELOPMENT

By:

Its:
       DAVID W.OGDEN
       A c r i n ~ h i s n n Attorney
                             t        General

                                   -
       ~idtid-~.
             Hera
       Stephen D.Alrman
       Maya S. Guerra
       Amrneys for the United
                          - -.-. Statcs
       Civil Division          --
       Depamnent of Justice

       ENVIRONMENTAL PR,OTECrr?ON
       AGEN''CY

By:                          . .   -. . -
Its:

       AGENCY FOR JNTERNAItl0NA.L
       DEVELOPMENT
By:




In:

       DEPT'. 0 3 HOUSING AND
       URBAN DEVELOPMXNT


Its:                               -
       DAVID W, OGDEN
       Actin5 Assiuan t Accorney Crulud
              . .-


       Michad!~.
              Hua
       ~ t q h c n b&
                    . man
       Maya S, Guma
                                    -
       Anomep for the uni..t .u l - ~ i a c t s
       Civil Divisiw                                          I


                                                              1.
       Deprr~nen  t of Justi~r

       T O N ~ ~ N T Al'KO1ZClTON
                         J ,
       AGENCY
                                            .   *   -.
                                                              ii
By:                                .-                         I
                                                         .-   1

       AGENCY FOR TNTElWATlONhL
       DEWLOPMtNT
By; .



       DEPT.,,OFHEALTH AND HUMAN
       SERVICES

By:

Its!




By:

To;
        DEPT. OF AGRICULTURE
            4-




By:     ,
        '/
         7
            1:
                 mtler
1:      Acting Ass istant General Counsel


                                      '     .-
        DEPT. OF LABOR     *- Z: -'




By:

Its:    r




        NATIONAL SCIENCE              - -
        FOUNDATION .

By:

Its:

        DEPT. OF EDUCATION

By:

Its :

        S O W SECURITY
        ADMINISTRATION

By:

Its :

        EXE-      OFmCE OF THE
        PRESIDENT

By:
Its:
            DEPT."OF AGRICULTURE
                  /.

By:              . .-



Its:


            DEPT. OF LABOR - -   '   --
By:     ,-GL;/               /LL~
                         I
                              -
~ts:        Aac4 . -     0

                                /;.CP.W.
                        ~c~,:rn',\   LA\,*(    A-
                                          .. * .
                                                               l
                                                    l-,,vp&)~lK&%,~.
                                                         .   ..,..
            NATIONAL SCIENCE
            FOUNDATION

By:

Its:    .


            DEPT. OF EDUCATION

By:

Its:

            SOCIAL SECURITY
            ADMINISTRATION

By:

Its:

            EXECUTIVE OFFICE OF THE
            PRESIDENT

 By:

 Its:
       DEPT./OF AGRICULTURE


By:
           . .-

Its:

                       - -. -.
       DEW. OF LABOR      .-

By:
            I



Its:

       NATIONAL SCIENCE
                    . .          .   .
       FOUNDATION

By:
Its:
       DEPT!OF EDUCATION
            I




By:
Its:

       SOCIAL SECURITY
       ADMINISTRATION

By:
Its:
       EXECUTIVE OFmCE OF THE
       PRESIDENT

By:

Its:
By:           . .-

Its :

                             .   -
        '   DEPT. OF LABOR

By:




BY-




By:
Its:
Its:


       D m .0 2 LABOR -      "-'-   -
By:
Its:                                        .   .-

       NATIONAL SCIENCE
       FO~NI~ATION -                    .   .

                I!
By:

Its:                 -




By.
Is: .

            I            .




By:




By:
In:
       DEPT.OF AGRTCWL'm
           /.

By:                    -3

           . .-

Its:

                       - .. -.
       DEPT.OF LABOR        -    -
By:

Its:

       NATIONAL SCIENCE
       FOUNDATION

By:

Its:
       DEPT.OF EDUCATION
By:

Its:

       SOCIAL SECURITY
       ADMINISTRATION



Its:
       EXECUTIVE OFFICE OF THE
       PREsrnm

By:               &A-
Its:
By:
             I


ID:              Y/bcuccae~rE   w-ci~

           GENERAL ACCOUNTING OFFICE
By:

Its:

           MEDICARE PAYMENT ADVISORY
                             . -
           C0MMI:SSION

By:

Its:

           FEDERAL TRADE COMMISSION

By:

Its   ,:




           NATIONAL ENDOWMENT FOR
           THE ARTS
By:

Its:

           CONSUMER PRODUCT SAFETY
           COMMISSION

By:

Its:,
        DEPT. OF COMMERCE
              *.
By:

Its:          . .-



       - - V R A LA F U N -T-.I-.N G OFFICE


c
Its:

        MEDICARE PAYMENT ADVISORY
        COMMISSION
                                  . .

By:

Its:                   -   .




         FEDERAL TRADE COMMISSION

By:

Its:

         NATIONAL ENDOWMENT FOR
         THE ARTS

By:

Its:

         CONSUMER PRODUCI' SAFETY
         COMMISSION
Bv:

Its:
       DEM'.4.'OF COMMERCE

By:

Its:


                       .
                    - - -.
       GENERAL ACCOUNTING  OFFICE
                            . .


By:

Its:

       MEDICARE PAYMENT ADVISORY




       FEDERAL TRADE COMMISSION

By:

Its:

       NATIONAL ENDOWMENT FOR
       THE ARTS

By:

Its:

       CQNSXJMER PRODUCT SAFETY
       COMMISSION

By:

Its:
    By:
I
                . .-
    Irs:

           DEPT. OF COMMERCE
                    I!




    By:                       --



           DEPT. OF DEFENSE

    By:

    Is:         I        C




    By:
By:

Its:       . .-




       GENERAL ACCOUNTING
                    - .. -. OFFICE
                               ..
By:

Its:



By:

Its:
       FEDERAL TRADE COMMISSION

By:


       NATIONAL ENDOWMENT FOR
       THEARTS    ,!




       CONSUMER PRODUCT SAFETY
       COMMISSION

By:
       DEPT. OF COMMERCE

By:
                    . .-
Its:

       GENERAL ACCOUNTING OFFICE

By:
Its:

       MEDICARE PAYMENT ADVISORY
       COMMISSION .       . -


By:
Its:

           FEDERAL TRADE COMMISSION

By:
Its:
           NATIONAL ENDOWMENT FOR
           THE ~ T S

By:
Its:

           CONSUME PRODUCT SAFETY
           a@&
By:    ,
                i f l / i h
                I    I;
            I
Its:
                         i
         DEPT. OF COMMERCE

By;
                  #.
fa:


         GENERAL ACCOUN?1[NG OFEiCE

By:                     -




         M E D I W PAYMENT ADVfSC]RY
         COKE41SSI[ON

By:                          .   .   - .
b:
         E;ESZRAZ; TRADE COMMLSSION

By:


         NATIONAL WOWMENT FOR
         THE m s




         CONSUMER PRODUCT sm.n
         COMMISSXON

By:
Its:

         DEBT. OF JUSTICE




       LO.
